                                              EMPLOYMENT STANDARDS
                                              ADMINISTRATION


Office of Inspector General—Office of Audit




                                              GPRA DATA VALIDATION REVIEW
                                              FEDERAL EMPLOYEES’ COMPENSATION ACT




                                                                     Date Issued: September 27, 2005
                                                                     Report Number: 22-05-008-04-431
U.S. Department of Labor
Office of Inspector General
Office of Audit
                                                         September 2005

BRIEFLY…                                                 GPRA Data Validation Review, FECA
Highlights of Report Number: 22-05-008-                  Program
04-431, to the Assistant Secretary for
Employment Standards.                                    WHAT OIG FOUND
September 2005                                           Based on our review, we concluded that reductions
                                                         in payments of Periodic Roll Management (PRM)
                                                         benefits, due to the death of a claimant, are included
WHY READ THE REPORT
                                                         in the FECA Program’s computation of savings
The Federal Employees’ Compensation Act (FECA),          generated in the first year. Accurate recording of the
administered by the Employment Standards                 reduction in PRM benefit payments is critical
Administration (ESA), was enacted in 1916 to             because the FECA GPRA goal addresses first year
provide workers’ compensation coverage to Federal        savings generated through use of PRM in the FECA
and Postal workers around the world for                  program. The PRM module of the Sequent System
employment-related injuries and occupational             calculates savings by comparing benefit payment
diseases. Benefits include wage replacement,             amounts before and after FECA resolves a case
payment for medical care, and where necessary,           through a change or termination of benefits due to
medical and vocational rehabilitation assistance in      disability, reemployment or death. The six district
returning to work. The program has twelve district       offices we visited resolved 2,683 cases in CY 2003.
offices nationwide.                                      Of these, 739 cases (27 percent) were resolved due
                                                         to claimant deaths, which resulted in benefit
The Labor Department relies on data, submitted by        payment reductions of $1,334,190.
the district offices, to assess whether or not the
program is achieving its yearly goals, and if changes
are needed to make it more effective. Congress           WHAT OIG RECOMMENDED
may review performance information in making
decisions about future program funding.                  To improve the completeness and reliability of the
                                                         Federal Employees’ Compensation Act performance
                                                         data, we recommend that the Assistant Secretary for
WHY OIG DID THE REVIEW                                   Employment Standards ensure the FECA Program
                                                         excludes cases resolved due to claimants’ death
We conducted our review to determine the                 from the calculation of savings generated through
completeness and reliability of the CY 2003 data         use of Periodic Roll Management.
used to support the FY 2003 performance goal 2.2C:
“Minimize the human, social, and financial impact of     ESA concurred with the recommendation and
work-related injuries for workers and their families.”   provided information about actions taken and
We selected FECA data from CY 2003 for our               planned to address the recommendation.
review. Six district offices were randomly selected
for our review.



READ THE FULL REPORT
To view the report, including the scope,
methodology, and full agency response, go to:
http://www.oig.dol.gov/publicreports/oa/2005/22-05-
008-04-431.pdf.
                                                                           Employment Standards Administration
                                                                      GPRA Data Validation Review, FECA Program




Table of Contents
                                                                                                                         PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 5

FINDING AND RECOMMENDATION............................................................................. 7

Finding - FECA overstated indicator four by including benefit payment savings
   that resulted from claimant deaths in cumulative first year savings. ................. 7


EXHIBIT ........................................................................................................................ 11

A. Federal Employees’ Compensation Act PRM Data and Results for calendar
   year 2003 ................................................................................................................ 13

APPENDICES ............................................................................................................... 15

A. Background............................................................................................................. 17
B. Objective, Scope, Methodology, and Criteria....................................................... 19
C. Acronyms and Abbreviations ................................................................................ 21
D. Agency Response To Draft Report ....................................................................... 23




U.S. Department of Labor—Office of Inspector General                                                                             1
Report Number: 22-05-008-04-431
Employment Standards Administration
GPRA Data Validation Review, FECA Program




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                      U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 22-05-008-04-431
                                                       Employment Standards Administration
                                                  GPRA Data Validation Review, FECA Program


Executive Summary
The Office of Inspector General conducted a review of calendar year (CY) 2003 data
collected and reported from the Sequent mainframe system of the Employment
Standards Administration’s (ESA), Office of Workers’ Compensation Programs
(OWCP), Division of Federal Employees’ Compensation (DFEC). The Federal
Employees’ Compensation Act (FECA) was enacted in 1916 to provide workers’
compensation coverage to Federal and Postal workers around the world for
employment-related injuries and occupational diseases. Benefits include wage
replacement, payment for medical care, and where necessary, medical and vocational
rehabilitation assistance in returning to work. DFEC adjudicates new claims for benefits
and manages ongoing cases; pays medical expenses and compensation benefits to
injured workers and survivors; and helps injured employees return to work when they
are medically able to do so. DFEC has 12 district offices nationwide.

We conducted our review to determine the completeness and reliability of the
CY 2003 performance data submitted via the Sequent System, for indicators one
through six reported by the FECA program for Department of Labor Performance Goal
number 2.2C. ESA compiles the data and computes and reports the final results in the
Department of Labor Annual Performance and Accountability Report. OIG relied on CY
2003 data to compile the schedule of FECA performance data and results for CY 2003,
specifically for DOL’s Government Performance and Results Act (GPRA) goal related to
minimizing the human, social, and financial impact of work-related injuries for workers
and their families. The accuracy of the reported results for the performance goal relies
on the validity of the data maintained in the Sequent System.

Results

We were able to verify to source documents the data used to report the program results
for FECA performance indicators one through three, five and six, reported for
Performance Goal number 2.2C “Minimize the human, social and financial impact of
work-related injuries for workers and their families.” We concluded that FECA
overstated indicator four by including benefit payment savings resulting from claimant
deaths, since the reduction of benefit payments did not result from FECA intervention.
Indicator four measures FECA’s plan to achieve $20 million cumulative first year
savings in FY 2003 through use of the Periodic Roll Management (PRM). The PRM
module of the Sequent System calculates savings by comparing the difference between
benefit payment amounts before and after FECA resolves a case that resulted in a
change or termination of claimant benefits due to disability, reemployment or death.
FECA reported in the FY 2003 Department of Labor Performance and Accountability
Report cumulative first year savings of $24.6 million and that it had met this
performance indicator. The six district offices we visited resolved 2,683 cases in CY
2003. Of these cases, 739 (27 percent) cases were resolved due to claimant deaths,
which resulted in benefit payment reductions of $1,334,190.
U.S. Department of Labor—Office of Inspector General                                     3
Report Number: 22-05-008-04-431
Employment Standards Administration
GPRA Data Validation Review, FECA Program

Based on our review of the six FECA indicators, with the exception of the matter
described in the preceding paragraph, nothing came to our attention that caused us to
believe the schedule of FECA performance data and results for CY 2003 is not
presented, in all material respects, in conformity with GPRA and Office of Management
and Budget Circular No. A-11 (July 16, 2004), Section 230.2. The section states that
agencies are required to assess the completeness and reliability of performance data
reported.

Recommendations

To improve the completeness and reliability of the Federal Employees’ Compensation
Act performance data, we recommend that the Assistant Secretary for Employment
Standards ensure the FECA Program excludes cases resolved due to claimants’ death
from the calculation of savings generated through use of Periodic Roll Management.




Agency Response

In response to our draft report, the Assistant Secretary for Employment Standards
stated that the Division of Federal Employees’ Compensation (DFEC) has undertaken
action to modify the methodology it applies to the calculation for Periodic Roll
Management (PRM) savings beginning in FY 2006.

The ESA’s response in its entirety is attached as Appendix D.

OIG Conclusion

We agree with ESA’s planned corrective actions. The recommendations are resolved
and open. They will be closed upon OIG’s review of DFEC’s calculation for PRM
savings in FY 2006.




4                                      U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 22-05-008-04-431
                                                              Employment Standards Administration
                                                         GPRA Data Validation Review, FECA Program



U.S. Department of Labor                             Office of Inspector General
                                                     Washington, DC 20210




                             Assistant Inspector General’s Report


Victoria A. Lipnic
Assistant Secretary for
 Employment Standards Administration


The Division of Federal Employees’ Compensation (DFEC) adjudicates new claims for
benefits and manages ongoing cases; pays medical expenses and compensation
benefits to injured workers and survivors; and helps injured employees return to work
when they are medically able to do so. The Employment Standards Administration
(ESA), Office of Workers’ Compensation Programs (OWCP) administers the Federal
Employees’ Compensation Act (FECA) program through the 12 DFEC district offices.

ESA provides information for Performance Goal 2.2 reported in the annual Department
of Labor (DOL) Performance and Accountability Report (PAR) and is as follows
“Minimize the human, social, and financial impact of work-related injuries for workers
and their families.”

Performance Goal number 2.2C consists of 10 performance indicators related to ESA of
which indicators one through six report the results of the FECA program. The remaining
four indicators report the results of the Longshore and Harbor Workers, Black Lung and
Energy Programs. These six indicators related to FECA are:

    Indicator 1 - For FECA cases of the United States Postal Service, reduce the lost
    production days rate (LPD per 100 Employees) by 1 percent from the FY 2002
    baseline.
    Indicator 2 - For FECA cases of all other Government Agencies, reduce the lost
    production days rate (LPD per 100 Employees) by 3 percent from the FY 2001
    baseline.
    Indicator 3 - FECA will increase Vocational Rehabilitation placements with new
    employers for injured USPS employees by 5 percent over FY 2002.
    Indicator 4 - Through use of Periodic Roll Management, produce $20 million in
    cumulative, first year savings in the FECA program1.

1
 In FY 2004, FECA increased this indicator from $20 million to $38 million.
U.S. Department of Labor—Office of Inspector General                                            5
Report Number: 22-05-008-04-431
Employment Standards Administration
GPRA Data Validation Review, FECA Program



    Indicator 5 - The trend in the indexed cost per case of FECA cases receiving
    medical treatment will remain below the comparable measure for nationwide health
    care costs.
    FY 2004 Indicator 6 - Improve FECA customer service performance levels.

Program performance data to support this goal is collected at the 12 DFEC district
offices located nationwide. ESA compiles the data and computes and reports the final
results in the Department of Labor Annual Performance and Accountability Report. OIG
relied on CY 2003 data to compile the schedule of FECA performance data and results
for CY 2003, specifically for DOL’s Government Performance and Results Act (GPRA)
goal related to minimizing the human, social, and financial impact of work-related
injuries for workers and their families. We obtained FECA performance summary data
from ESA for CY 2003. The auditors compiled the data received, and using ESA’s
formulas, calculated results for selected Indicators based on CY 2003 data. We
reviewed 464 case files maintained at 6 district offices to verify that the reported
performance goals were supported. The accuracy of the reported results for the
performance goal relies on the validity of the data maintained in the Sequent System.

We reviewed indicators one through six that report the results of the FECA program.
We reviewed case file information used to support the data maintained in the various
modules of the Sequent System. Additionally, DFEC personnel provided us information
on how they and the system authorize, collect, and process the data reported for these
indicators. We also reviewed internal control procedures in place to ensure
completeness and reliability of the reported data.

We reviewed case file information supporting these performance indicators at the six
district offices visited to determine the completeness and reliability of DOL CY 2003
performance data for FECA. Without complete and reliable participant data, ESA
cannot effectively measure its progress toward achieving the GPRA goal related to
minimizing the human, social, and financial impact of work-related injuries for workers
and their families.

Our review was conducted in accordance with the attestation standards established by
the American Institute of Certified Public Accountants and the standards applicable to
attestations contained in Government Auditing Standards, issued by the Comptroller
General of the United States. A review is substantially less in scope than an
examination, the objective of which is the expression of an opinion on the schedule of
FECA performance data and results. Accordingly, we do not express such an opinion.

We were able to verify to source documents the data used to report the program results
for FECA performance indicators one through three, five and six. We concluded,
however, that FECA overstated indicator four by including benefit payment savings that
resulted from claimant deaths in cumulative first year savings. The PRM module of the
Sequent System calculates savings by comparing the difference between benefit


6                                       U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-05-008-04-431
                                                       Employment Standards Administration
                                                  GPRA Data Validation Review, FECA Program
payment amounts before and after FECA resolves a case that resulted in change or
termination of claimant benefits due to disability, reemployment or death. The 6 district
offices we visited resolved 2,683 cases in CY 2003. Of those cases, 739 (27 percent)
cases were resolved due to claimant deaths, which resulted in benefit payment
reductions of $1,334,190. FECA should not include benefit payment savings that result
from claimant deaths since the savings do not result from its intervention.

Based on our review of the six FECA indicators, with the exception of the matter
described in the preceding paragraph, nothing came to our attention that caused us to
believe the schedule of FECA performance data and results for CY 2003 is not
presented, in all material respects, in conformity with GPRA and Office of Management
and Budget Circular No. A-11 (2004), Section 230.2, which states that agencies are
required to assess the completeness and reliability of performance data reported.


FINDING AND RECOMMENDATION

Objective – Is CY 2003 GPRA performance data for FECA complete and reliable?


Finding - FECA overstated indicator four by including benefit payment savings
that resulted from claimant deaths in cumulative first year savings.

We were able to verify to source documents the data used to report the program results
for FECA performance indicators one through three, five and six, reported for
Performance Goal number 2.2C “Minimize the human, social and financial impact of
work-related injuries for workers and their families.”

FECA overstated indicator four by including savings resulting from claimant deaths in
cumulative first year savings.

FECA overstated indicator four for Performance Goal 2.2C by including benefit payment
savings that resulted from claimant deaths in cumulative first year savings. The 6
district offices we visited resolved 2,683 cases in CY 2003. Of those cases, 739 (27
percent) cases were resolved due to claimant deaths, which resulted in benefit payment
reductions of $1,334,190. For this indicator, FECA reported in the DOL FY 2003 PAR
that the use of the PRM module in the Sequent System allowed it to achieve $24.6
million in cumulative first year savings. The cumulative first year savings exceeded the
planned measure of $20 million. The PRM module of the Sequent System calculates
savings by comparing the difference between benefit payment amounts before and after
FECA resolves a case that resulted in a change or termination of claimant benefits due
to disability, reemployment or death.

The main criteria that govern the work performed are as follows:

U.S. Department of Labor—Office of Inspector General                                     7
Report Number: 22-05-008-04-431
Employment Standards Administration
GPRA Data Validation Review, FECA Program
      OMB Circular No. A-11 (2004), Section 230.2 which states that agencies are
      required to assess the completeness and reliability of performance data reported
      OMB A-123, which requires agency managers to incorporate control strategies,
      plans, guidance and procedures that govern their program’s operations
      ESA Reviewing Periodic Roll Cases Resource Book, dated 1999, which provides
      guidance in the maintenance of PRM cases
      Government Accountability Office (GAO) Standards for Internal Control in the
      Federal Government, November 1999.

One of the five standards for internal control, according to the GAO Standards for
Internal Control in the Federal Government, dated November 1999, is “control
activities.” An example of a control activity that is common to all agencies is review and
monitoring of performance measures and indicators. Specifically per the GAO
standard:

      Activities need to be established to monitor performance measures and
      indicators. These controls could call for comparisons and assessments
      relating different sets of data to one another so that analyses of the
      relationships can be made and appropriate actions taken. Controls should
      also be aimed at validating the propriety and integrity of both
      organizational and individual performance measures and indicators.

FECA should not have included changes or termination of benefits that resulted from
claimant deaths as part the cumulative first year savings since we determined through
our review that the savings did not result from FECA intervention. We reviewed the
PRM Resolution Lists that included all cases resolved in CY 2003 for the 6 district
offices we visited. We also identified all cases where the district offices resolved and
terminated benefits due to the claimant’s death. Of the 2,683 cases resolved in CY
2003, these district offices resolved 739 (27 percent) where benefit payment savings
resulted from the claimants’ death. These 739 cases had a reduction in benefit
payments of $1,134,190, (PRMS) (see Exhibit A). In its response to our Statement of
Facts, FECA proposed the following revision to performance indicator four in FY 2006:

      Through staff-initiated evaluation of cases under Periodic Roll
      Management for changes in medical condition, ability to return to work,
      and similar eligibility changes, produce X millions in savings.




8                                       U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-05-008-04-431
                                                       Employment Standards Administration
                                                  GPRA Data Validation Review, FECA Program
Recommendation
To improve the completeness and reliability of the Federal Employees’ Compensation
Act (FECA) performance data, we recommend that the Assistant Secretary for
Employment Standards ensure the FECA Program excludes cases resolved due to
claimants’ death from the calculation of savings generated through use of Periodic Roll
Management.

Agency Response

In response to our draft report, the Assistant Secretary for Employment Standards
stated that the Division of Federal Employees’ Compensation (DFEC) has undertaken
action to modify the methodology it applies to the calculation for Periodic Roll
Management (PRM) savings beginning in FY 2006.

OIG Conclusion

We agree with ESA’s planned corrective actions. The recommendations are resolved
and open. They will be closed upon OIG’s review of DFEC’s calculation for PRM
savings in FY 2006.




Elliot P. Lewis
July 1, 2005




U.S. Department of Labor—Office of Inspector General                                      9
Report Number: 22-05-008-04-431
Employment Standards Administration
GPRA Data Validation Review, FECA Program




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




10                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 22-05-008-04-431
                                                       Employment Standards Administration
                                                  GPRA Data Validation Review, FECA Program




Exhibit




U.S. Department of Labor—Office of Inspector General                                    11
Report Number: 22-05-008-04-431
Employment Standards Administration
GPRA Data Validation Review, FECA Program




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




12                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 22-05-008-04-431
                                                       Employment Standards Administration
                                                  GPRA Data Validation Review, FECA Program

                                                                               EXHIBIT A


      A. FEDERAL EMPLOYEES’ COMPENSATION ACT PRM DATA AND
                            RESULTS FOR CALENDAR YEAR 2003

        PRM Resolutions for the 6 District Offices Visited (by district office)




                               Resolutions Due                                     % of
                                to Claimants           Amount         Total    Resolutions
District Office (number)            Death              (in $’s)    Resolutions Due to Death

     Jacksonville (6)                 319              $ 590,124      1045          31%

      Cleveland (9)                    97              $ 156,842      218           44%

      Chicago (10)                     10              $ 18,198       160            6%

       Denver (12)                     54              $ 96,825       173           31%


   San Francisco (13)                 197              $ 381,790      760           26%


  Washington, DC (25)                  62              $ 90,412       327           19%

          Total                       739          $ 1,334,190        2683          27%




U.S. Department of Labor—Office of Inspector General                                      13
Report Number: 22-05-008-04-431
Employment Standards Administration
GPRA Data Validation Review, FECA Program




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




14                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 22-05-008-04-431
                                                       Employment Standards Administration
                                                  GPRA Data Validation Review, FECA Program




Appendices




U.S. Department of Labor—Office of Inspector General                                    15
Report Number: 22-05-008-04-431
Employment Standards Administration
GPRA Data Validation Review, FECA Program




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




16                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 22-05-008-04-431
                                                       Employment Standards Administration
                                                  GPRA Data Validation Review, FECA Program

                                                                             APPENDIX A
BACKGROUND


The Federal Employees’ Compensation program was established under the Federal
Employees’ Compensation Act (FECA) (Title 5 U.S.C. Sections 8101-8193).
Regulations governing the FECA program are found at 20 CFR, Parts 1-25. FECA’s
purpose is “to provide Federal employees who sustain work-related injury or disease
with adequate and timely benefits for medical care and wage loss replacement, as well
as the assistance in returning to work where necessary.”

ESA manages the FECA program, and in turn has delegated the authority and
responsibility for administering the program to the Office of Workers’ Compensation
Programs (OWCP) through the 12 district offices of the Division of Federal Employees’
Compensation (DFEC). Information collected from various modules of the Sequent
System is used to report performance data and outcomes for the FECA program.

In order to qualify for FECA benefits, a claimant must be eligible. The claims process
begins when an injured worker submits a Form CA-1 (Report on Traumatic Injury) or
Form CA-2 (Notice of Occupation Illness) to a DFEC district office. Data entry clerks
receive CA-1 and CA-2 forms and enter them into the Case Management File System
(CMF), where CMF assigns a unique nine-character number for each claimant. CMF is
a module of the FECA Sequent System. Once cases are created, they are assigned to
a claims examiner (CE), who has the responsibility to collect, review and process
information related to the claim. District offices send completed CA-1 and CA-2 forms
to London, Kentucky, so they can be entered into the OWCP Automated System for
Imaging Services (OASIS), a system used to store and manage the large number of
documents required to file a claim.

After thoroughly reviewing the case file, the CE denies, approves or defers the claim. If
the CE denies the case, he/she notifies the claimant for the determination and closes
the case. Deferred cases require the CE to conduct further research. If approved, the
CE keys the case into the Automated Compensation Payment System (ACPS) which
stores approved payments for overnight transmission to the DFEC National Office. The
CE establishes and the Senior CE certifies the payment. The DFEC National Office
receives the payment data, calculates the benefits, conducts final edit checks, and
transmits data the DFEC district office. The CE reviews the accuracy of payment
schedule and approves or disapproves payment. If the CE disapproves payment,
he/she resubmits for processing. The DFEC district office sends the payment
information to Treasury who pays the claimant by check or direct deposit.

The case management process includes a nurse intervention phase, possible
development of medical evidence by the CE, and a vocational rehabilitation phase, if
needed. During the nurse intervention phase, the CE typically creates a new case
when the injured worker’s first claim for wage loss compensation is approved with no
expected return to work date. A Staff Nurse receives the case and assigns it to a Field

U.S. Department of Labor—Office of Inspector General                                    17
Report Number: 22-05-008-04-431
Employment Standards Administration
GPRA Data Validation Review, FECA Program

Nurse, who works with the treating physician and the injured worker to achieve recovery
and return to work with the Federal-employing agency. In most cases, the injured
worker returns to work within 90 to 120 days or the Staff Nurse has identified the
employment limitations and referred the injured worker to a Rehabilitation Specialist to
initiate vocational rehabilitation services. DFEC provides vocational rehabilitation
services as a benefit to improve a worker’s skills before it makes a compensation
determination, as well as to reduce reliance on compensation. Vocational rehabilitation
services include testing, evaluation, counseling, guidance, training, placement, and
follow-up. Staff Nurses and Rehabilitation Specialists manage and oversee all claims
and vocational rehabilitation contractors. The injured worker should fully cooperate with
the Staff Nurse, the CE and Rehabilitation Contractors or DFEC might adjust the
compensation benefit in accordance with laws and regulations. Vocation rehabilitation
has two goals: 1) return the injured worker to a suitable job (preferably with the
employer at the time of injury), and 2) assess the workers earning capacity, based on
vocation evaluation, within 1 to 2 years of the date of which wage loss began.

Compensation claims that are over 30 months old and meet certain conditions are
classified as long-term disability cases, or Periodic Roll (PR) cases. Once a claimant is
determined to be long-term disabled, disability payments are made automatically every
28 days until notice is made to decrease or terminate payments. Once claimants are
placed on PR there is no predetermined end date. Long-term disability cases are
reviewed intermittently, based on their status, to ensure that pertinent information, such
as contact, medical documentation, claimant’s work status, and benefit payments are
correct. FECA uses the Periodic Role Management (PRM) module in the Sequent
System to manage Periodic Roll cases. Savings are generated when DFEC resolves
cases as a result of its intermittent review. Cases are resolved when claimant benefits
are reduced or terminated due to change in disability, reemployment or death.




18                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-05-008-04-431
                                                       Employment Standards Administration
                                                  GPRA Data Validation Review, FECA Program


                                                                              APPENDIX B
OBJECTIVE, SCOPE, METHODOLOGY, AND CRITERIA


Objective

To determine the completeness and reliability of indicators one through six reported by
the FECA program for DOL performance goal 2.2c.

Scope and Methodology

We conducted our review to determine the completeness and reliability of the
CY 2003 performance data submitted via the Sequent System. We selected FECA data
from CY 2003 for our review. The FECA data pertained to performance goal 2.2C,
Indicators 1-6.

The universe containing all district offices was divided into three strata, high, medium
and low based on the number of FECA cases reported during the CY 2003, compiled by
the OIG statistician. Two sites were randomly selected from each stratum. Two sites
were selected from district offices reporting more than 23,088 cases (Jacksonville, FL
and San Francisco, CA), two sites were selected from district offices reporting a range
of cases between 22,476 and 9,466 (Washington, DC and Cleveland, OH), and the final
two district offices were selected from those district offices reporting a range of less than
8,359 cases (Chicago, IL and Denver, CO) for the CY 2003. Two district offices were
selected from each stratum for a total of six offices. The total universe was comprised
of 203,718 cases originating from a total of 12 district offices. We reviewed a combined
total of 464 cases in the 6 of 12 total district offices visited.

We conducted a walk through of how program personnel and modules within the
Sequent System authorize, collect, record, and process reported data for indicators 1-6.
We obtained an understanding of the flow of data from origination to reporting of data by
the National Office. We also gained an understanding of the internal control procedures
in place to ensure completeness and reliability of the reported data.

For indicators 1 and 2, we performed the following tests:

       Verified that approval documentation for the FECA claim existed in each case
       file.

       Verified that initiation and termination of benefit payment dates were clearly
       documented in each case file.

       Verified that all cases in the Case Management File (CMF) Module of the
       Sequent System existed in the district office.


U.S. Department of Labor—Office of Inspector General                                      19
Report Number: 22-05-008-04-431
Employment Standards Administration
GPRA Data Validation Review, FECA Program

For indicator 3, we verified that rehabilitation data maintained the Nurse Rehabilitation
Tracking Module of the Sequent System were found in the case files.

For indicator 4, we verified that all resolved cases listed in the Periodic Roll
Management (PRM) Resolution List had documentation to support the resolution in the
case file. We also reviewed the reasons for resolution to determine whether the
resolution should be included in FECA’s computation of savings generated in the first
year.

For indicator 5, we interviewed district office staff to gain an understanding of the
procedures in place for the monitoring of payment of medical bills.

For indicator 6, we verified that closed CA-110 (telephone calls received by the district
office from claimants) data maintained in the case files existed in the CA-110 Module of
the Sequent System. We also verified that CA-110’s were resolved in a timely manner
(3 days).

The auditors conducted interviews and reviewed claimant files in Cleveland, OH,
Jacksonville, FL, San Francisco, CA, Chicago, IL, Denver, CO, and Washington, D.C.
We did not issue reports to each district office. Rather, we provided a Statement of
Facts (SOF) on the information we gathered to ESA’s Director of Office of Workmen’s
Compensation Programs. ESA indicated agreement with the facts presented by signing
the SOF. Weaknesses are discussed in the Assistant Inspector General’s Report.

Criteria

The main criteria that govern the work performed are as follows:

       OMB Circular No. A-11 (2004), Section 230.2 which states that agencies are
       required to assess the completeness and reliability of performance data reported
       OMB A-123, which requires agency managers to incorporate control strategies
       plans, guidance and procedures that govern their program’s operations
       ESA Reviewing Periodic Roll Cases Resource Book, dated 1999, which provides
       guidance in the maintenance of PRM cases
       Government Accountability Office (GAO) Standards for Internal Control in the
       Federal Government, November 1999.




20                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 22-05-008-04-431
                                                       Employment Standards Administration
                                                  GPRA Data Validation Review, FECA Program

                                                                             APPENDIX C
ACRONYMS AND ABBREVIATIONS


ACS           Affiliated Computer Services
ACPS          Automated Compensation Payment System
AQS           Agency Query System
BPS           Bill Payment System
CE            Claims Examiner
CFR           Code of Federal Regulations
CMF           Case Management File System
CSR           Customer Service Representative
CY            Calendar Year
DOL           Department of Labor
DFEC          Division of Federal Employees’ Compensation
ESA           Employment Standards Administration
FECA          Federal Employees’ Compensation Act
FY            Fiscal Year
GAO           Government Accountability Office
GPRA          Government Performance and Results Act
LPD           Lost Production Days
NRTS          Nurse Rehabilitation Tracking System
OASIS         OWCP Automated System for Imaging Service
OIG           Office of Inspector General
OMB           Office of Management and Budget
OWCP          Office of Workers’ Compensation Programs
PAR           Performance and Accountability Report
PR            Periodic Roll
PRM           Periodic Roll Management
PRMS          Periodic Roll Management System
QCM           Quality Case Management
RS            Rehabilitation Specialist
SOF           Statement of Facts




U.S. Department of Labor—Office of Inspector General                                    21
Report Number: 22-05-008-04-431
Employment Standards Administration
GPRA Data Validation Review, FECA Program




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 22-05-008-04-431
                                                       Employment Standards Administration
                                                  GPRA Data Validation Review, FECA Program

                                                                             APPENDIX D
D. AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                    23
Report Number: 22-05-008-04-431
Employment Standards Administration
GPRA Data Validation Review, FECA Program




24                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 22-05-008-04-431
